                               Office of Inspector General
                              Corporation for National and
                                       Community Service




    AUDIT OF CORPORATION FOR NATIONAL
 AND COMMUNITY SERVICE GRANT AWARDED
TO THE NEW YORK STATE OFFICE OF NATIONAL
          AND COMMUNITY SERVICE

           OIG REPORT NUMBER 06- 14




                       Prepared by:

              Leon Snead & Company, P.C.
             416 Hungerford Drive, Suite 400
               Rockville, Maryland 20850




This report was issued to Corporation management on June 30, 2006. Under
the laws and regulations governing audit follow-up, the Corporation is to make
finalmanagementdeci      sionsont  her epor
                                          t’
                                           sfindi
                                                ngsandr   ecommendat    i
                                                                        onsno
later than December 30, 2006, and complete its corrective actions by June 30,
2007. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                             OFFICE OF INSPECTOR GENERAL



                         Corporation for National and Community Service
                                       Audit Report 06-14

           Audit of Corporation for National and Community Service Grants Awarded
               to the New York State Office of National and Community Service

OIG Summary
The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Leon Snead & Company, P.C. (Snead) to perform an incurred-cost audit
of grants awarded to the New York State Office of National and Community Service (ONCS).

The grantees claimed costs of $34,453,824 of which the auditors questioned $289,560 as
unallowable grant costs and $307,125 of education awards. The majority of the questioned costs
occurred at one subgrantee, the YMCA of Greater New York (YMCA). Overall, the auditors
questioned less than 1 percent of claimed grant costs. Costs questioned for allowability
represents: an alleged violation or provision of law, regulation, grant or other agreement
governing the expenditure of funds; a finding that, at the time of the audit, certain costs were not
supported by adequate documentation; or a finding that the expenditure of funds for the intended
purpose was unnecessary or unreasonable. The auditors also noted instances of noncompliance
with provisions of Federal laws, regulations and grant award provisions.
In accordance with our statutory responsibilities, we reviewed Snead’s report and related audit
documentation, interviewed their representatives, and performed other procedures, as we deemed
appropriate in the circumstances to provide reasonable assurance that the audit was performed in
accordance with generally accepted government auditing standards. Our review was not
intended to enable us to express, and we do not express, opinions on the Grantee’s Consolidated
Schedule of Award Costs, or conclusions on internal controls and on compliance with laws and
regulations. Snead is responsible for the attached reports dated November 25, 2005, and the
conclusions expressed therein. However, our review disclosed no instances where Snead did not
comply, in all material respects, with generally accepted government auditing standards.

The Office of Inspector General provided officials of ONCS with drafts of this report for their
review and comment. The ONCS and the YMCA’s written responses are included as
Appendices A and B respectively. The Corporation’s responses are included in Appendix C.

This report is a matter of public record, and its distribution is not limited.




                        1201 New York Avenue, NW Suite 830, Washington, DC 20525
                           202-606-9390 Hotline: 800-452-8210 www.cncsig.gov

                            Senior Corps   AmeriCorps   Learn and Serve America
                                                    TABLE OF CONTENTS



Results in Brief ................................................................................................................................1

Objectives of Audit ..........................................................................................................................2

Scope of Audit .................................................................................................................................2

Background ......................................................................................................................................4

Independent Auditor’s Report..........................................................................................................5

Consolidated Schedule of Award Costs...........................................................................................7

Schedule A - Claimed and Questioned Costs (00ASCNY033) .......................................................8

Schedule B - Claimed and Questioned Costs (03ACHNY001).....................................................13

Schedule C - Claimed and Questioned Costs (03AFHNY001) .....................................................17

Schedule D - Claimed and Questioned Costs (02AHHNY033) ....................................................22

Schedule E - Claimed and Questioned Costs (01SCSNY034 & 04CAHNY001).........................23

Independent Auditor’s Report on Compliance and Internal Controls ...........................................26

Compliance Findings .....................................................................................................................27

Internal Control Over Financial Reporting ....................................................................................34

Follow-Up on Prior Audit..............................................................................................................39

Responses to Report

     New York State Office of National and Community Service..................................Appendix A

     YMCA of Greater New York .................................................................................. Appendix B

     Corporation for National and Community Service.................................................. Appendix C
                                          Compliance

Our review of ONCS compliance with Federal laws, applicable regulations and award conditions
disclosed the following instances of noncompliance:
       •   ONCS did not submit final financial status reports in a timely manner to close out
           four grants and did not submit semi-annual financial status reports for three grants as
           specified in the AmeriCorps Provisions.
       •   Ten of the AmeriCorps subgrantees reviewed had one or more member files that did
           not contain all required documentation to support their members’ eligibility for
           participation or to meet other program requirements. The missing or incomplete
           documents included:
           i Proof of eligibility;
           ii. Criminal background checks;
           iii. Position descriptions;
           iv. Signed member contracts;
           v. Mid-term/final evaluations; and
           vi. Enrollment/exit/change of status forms.
       •   One subgrantee placed AmeriCorps members at summer and holiday camps without
           prior written approval of ONCS and the Corporation.

                                       Internal Controls

Our audit disclosed three weaknesses in the internal control systems of ONCS and its
subgrantees:

       •   ONCS did not have time distribution reports to support the salaries of three
           individuals charged to its administrative grants;
       •   ONCS had not taken timely action to address the program weaknesses observed
           during an independent audit of a subgrantee; and
       •   One subgrantee paid its members’ housing costs from pre-tax living allowances.

                               Objectives And Scope Of Audit

The objectives of our audit were to determine whether:

       •   Financial status reports (FSRs) prepared by ONCS presented fairly the financial
           results of the awards;
       •   ONCS internal controls were adequate to safeguard Federal funds;
       •   ONCS and its subgrantees had adequate procedures and controls to ensure
           compliance with Federal laws, applicable regulations, and award conditions;
       •   Award costs reported to the Corporation by ONCS were documented and allowable in
           accordance with the award terms and conditions; and
       •   ONCS had established adequate oversight procedures and had informed subgrantees
           of the Corporation’s Government Performance and Results Act (GPRA) goals.



                                            2
We performed the audit in accordance with auditing standards generally accepted in the United
States of America and generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the costs
claimed against the awards, as presented in the Consolidated Schedule of Award Costs, are free
of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the Schedules. An audit also includes assessing the accounting
principles used and significant estimates made by the ONCS management, as well as evaluating
the overall financial schedule presentation. Our audit included reviews of audit reports prepared
by independent public accountants for ONCS and its subgrantees in accordance with the
requirements of the Office of Management and Budget (OMB) Circular A-133, Audits of States,
Local Governments and Non-Profit Organizations. We also followed up on the findings and
recommendations that had been presented to ONCS in a pre-audit survey report dated September
28, 2004 (OIG Audit Report No. 04-19).

With regard to GPRA, AmeriCorps grantees and subgrantees provided progress reports to the
Corporation that were maintained in the Web-Based Reporting System (WBRS). The
Corporation developed program-reporting guidelines that were derived from its Federal reporting
requirements. The ONCS does not make continuation grants available to subgrantees that do not
meet program objectives, unless extenuating circumstances prevented subgrantees from meeting
those objectives.

Evaluation reports and independent audits from consultants or other sources are utilized to
monitor and assess program accomplishments and program operations. In summary, the
monitoring process appears to be effective and operating as intended, except for program
weaknesses observed at the YMCA of Greater New York (YMCA). In December 2003, an
independent auditor, hired by ONCS, reported in a draft report that the YMCA had serious
problems in administering its AmeriCorps grants. ONCS confirmed that the program
weaknesses existed during its monitoring visit in December 2004; however, corrective actions
are still needed to address the program weaknesses and questioned costs.

                                   Grant Programs Audited

During the period of our audit, ONCS received approximately $51.4 million under 11 grant
awards. About $49.3 million of this amount was distributed by ONCS to subgrantees and
approximately $34.5 million was claimed on ONCS financial status reports. The majority of the
ONCS subgrantees are nonprofit organizations.

Our audit of the costs claimed by ONCS under these awards disclosed the following:

                                                                         Percentage of
                                                    Amount
                                                                        Budget/Claimed
       Award Budget                               $51,428,001                          -
       Claimed Costs                               34,453,824                    66.99%
       Questioned Grant Costs                         289,560                      .84%
       Questioned Education Awards                    307,125                          -



                                            3
A brief synopsis of programs funded by the grants is as follows:


                                                           Funding           Claimed
Program                                   Award No.       Authorized          Costs        Drawdowns

AmeriCorps Competitive                    00ASCNY033      $16,857,995      $12,705,368     $12,705,368
AmeriCorps Competitive                    03ACHNY001       13,028,546        7,448,438       4,730,061
AmeriCorps Formula                         00ASFNY033       6,336,337        5,666,590       5,666,590
AmeriCorps Formula                        03AFHNY001        9,616,246        5,411,564       4,285,273
AmeriCorps State Homeland Security        02AHHNY033        2,872,564        2,008,233       1,864,714
AmeriCorps Education Awards                00EDSNY050         260,504          126,693         126,693
AmeriCorps Education Awards                03ESHNY001         128,000          122,200         122,200
Administrative                             01SCSNY034         917,090          619,462         619,462
Administrative                            04CAHNY001          976,309           91,243          90,635
Program Development and Training           02PDSNY034         264,310           99,367         115,602
Disability                                02DSCNY034          170,100          154,666         100,942
Totals for Grants Administered by ONCS*                   $51,428,001      $34,453,824    $30,427,540

 *The differences between the amounts claimed and the amounts drawn down are generally due to timing issues.
  Some subgrantees do not request payments from ONCS on a timely basis.

                                              Background

The Corporation for National and Community Service, pursuant to the authority of the National
and Community Service Trust Act, as amended, awards grants and cooperative agreements to
State Commissions and other entities to assist in the creation of full-time and part-time national
and community service programs. The Governor’s Executive Order No. 179, dated December
30, 1993, established the New York State Commission on National and Community Service
(now known as the New York State Office of National and Community Service or ONCS). The
Commission was originally part of the State Office of the Budget. In a re-organization in 1999,
it became part of the newly formed New York State Office of Children and Family Services
(OCFS). ONCS receives administrative, financial and other support from OCFS and is part of
the Office of Youth Development.

The contents of this report were disclosed to and discussed with ONCS at an exit conference held
on January 11, 2006. In addition, we provided a draft of this report to ONCS and to the
Corporation for comment on March 20, 2006, and received responses from ONCS, the
Corporation, as well as, the YMCA of Greater New York. Their responses are included in the
report in their entirety as Appendices A, B and C.




                                                4
                        Corporation for National and Community Service
                     New York State Office of National and Community Service
                             Consolidated Schedule of Award Costs

                                                                       Questioned
    Award                     Approved       Claimed                                Education
   Number      Program          Budget        Costs          Costs      Match        Awards      Schedules
00ASCNY033   AmeriCorps       $16,857,995   $12,705,368      $79,480                $125,212         A
             Competitive

00ASFNY033   AmeriCorps         6,336,337       5,666,590
             Formula

03ACHNY001   AmeriCorps        13,028,546       7,448,438     30,881                153,563         B
             Competitive

03AFHNY001   AmeriCorps         9,616,246       5,411,564     52,351   $495,092      28,350         C
             Formula

02AHHNY033   AmeriCorps         2,872,564       2,008,233     16,562                                D
             State Homeland
             Security

01SCSNY034   Administrative       917,090        619,462      70,424     70,424                     E

04CAHNY001   Administrative       976,309         91,243      39,862     39,862                     E

00EDSNY050   AmeriCorps           260,504        126,693
             Education
             Awards

03ESHNY001   AmeriCorps           128,000        122,200
             Education
             Awards

02PDSNY034   Program              264,310         99,367
             Development
             and Training

02DSCNY034   Disability           170,100        154,666    _______    _______        _______


Total                         $51,428,001   $34,453,824     $289,560   $605,378       $307,125




                                            7
                                                                                      Schedule A


                    New York State Office of National and Community Service
                          Schedule of Claimed and Questioned Costs
                      Award No. 00ASCNY033 (AmeriCorps Competitive)
                           August 1, 2002, through March 31, 2004


                                                                         Questioned
                                        Budgeted        Claimed                 Education
Subgrantees                              Costs           Costs       Costs       Awards     Notes

New York Corps Collaboration           $2,792,527      $2,364,712          0           0
Town of West Seneca Youth Bureau        1,138,905       1,015,487          0           0
Phoenix House Foundation                1,053,358         877,720          0           0
Monroe Community College                1,240,001       1,199,148          0           0
YMCA of Greater New York                  875,564         866,682    $58,477    $122,850    1, 2 & 3
Fund for the City of New York             620,000         511,263      7,686                    4
Harlem Children’s Zone                    926,325         717,201          0           0
Oswego City/County Youth Bureau           471,200         442,480      2,928           0       5
Pace University                           247,999         239,249      3,615       2,362       6
The After School Corporation              676,426         638,549      6,774     ______0       7
 Sub-Total                            $10,042,305      $8,872,491    $79,480    $125,212
Others                                  6,815,690       3,832,877          0           0
  Total                               $16,857,995     $12,705,368    $79,480    $125,212



                                    Categories of Questioned Costs

    •     Eligibility requirements not supported by documentation     $72,706
    •     Education awards not supported by documentation             125,212
    •     Unallowable costs (OMB Circular A-122)                        6,774
            Total                                                    $204,692


NOTES:

    1. AmeriCorps Provisions (2002), B(6)(a), Eligibility, Recruitment and Selection, Eligibility
       to Enroll, state that “[t]he Grantee is responsible for obtaining and maintaining adequate
       documentation to demonstrate the eligibility of members.” In addition, AmeriCorps
       Provisions (2002), C(21)(c)(ii), Time and Attendance Records, AmeriCorps Members,
       state that “[t]he Grantee must keep time and attendance records on all AmeriCorps
       members in order to document their eligibility for in-service and post-service benefits.
       Time and attendance records must be signed both by the member and by an individual
       with oversight responsibilities for the member.”

          A review of time sheets and payroll records at the YMCA disclosed that 40 of the 84
          members who served in the program during (program year) PY 2002/2003 were


                                                8
   ineligible to receive all or parts of their living allowances. The members were ineligible
   for the living allowances for the following reasons:

      •   Member files were not always available to show the basis of eligibility for
          members to serve in the AmeriCorps program.
      •   Time sheets were not available to document that the members actually served on
          AmeriCorps projects.
      •   Members were paid living allowances after the termination of their services as
          AmeriCorps members.

   As a result, we have questioned $40,551 in living allowances paid to the 40 members
   during PY 2002/2003.

   YMCA Comments

   The YMCA stated in its response that the auditors did not consider information at
   locations other than their administrative headquarters office. Also, the YMCA stated that
   member living allowances were allocated, through an internal reconciliation process,
   before seeking reimbursement from the Federal government. Accordingly, many of the
   members were paid from YMCA funds, rather than from Federal funds, after their terms
   of service expired.

   Auditor’s Comments

   Prior to the audit, the Commission provided the YMCA with information on the material
   required to be available at the time of the audit. At the audit entrance conference, the
   YMCA was again advised of the material needed for the audit, including all data used to
   support the expenditures reported on their financial status reports. We believe the YMCA
   had sufficient opportunities to provide complete and accurate detailed financial
   information to support their financial status reports. The audit team made two site visits
   to the YMCA to review records and was told that the records provided by the YMCA
   were the correct records used to support their financial status reports. At no time did
   anyone state that the audit should be conducted at a different location or that the records
   provided were inaccurate and incomplete. All records that were made available to the
   audit team were reviewed either at the YMCA or at some other location, including the
   ones requested by the Office of Inspector General. Based on the information made
   available to the audit team, nothing came to our attention to indicate that the information
   provided by the YMCA was incomplete and/or inaccurate; therefore, we used the
   information provided by the YMCA to assess the adequacy of the financial reports
   prepared and submitted by the YMCA. The YMCA’s response did not include
   documentation to support member payments from non-Federal funds. As a result, the
   questioned costs relating to living allowances remain in the report.

2. AmeriCorps Provisions (2002), B(12), Post-Service Education Awards, state that “[i]n
   order to receive a full education award, a member must perform the minimum hours
   of service as required by the Corporation and successfully complete the program


                                        9
requirements as defined by the Program. For example, if successful completion of a full-
time program requires 1,800 service hours, members in that particular program are not
eligible for an education award simply upon completion of 1,700 hours.” In addition,
AmeriCorps Provisions (2002), C(21)(c)(ii), Time and Attendance Records, AmeriCorps
Members, state that “[t]he Grantee must keep time and attendance records on all
AmeriCorps members in order to document their eligibility for in-service and post-
service benefits. Time and attendance records must be signed both by the member and by
an individual with oversight responsibilities for the member.”

A review of the records showed that 29 of the 84 members who served in the program at
the YMCA during PY 2002/2003 completed the program and earned education awards.
However, the review disclosed that 26 of the 29 members who earned education awards
were ineligible for the awards for the following reasons.

    •   Time sheets did not support the number of hours reported in the Web-Based
        Reporting System (WBRS).
    •   Time sheets were changed after submission by the members to increase the
        number of hours served and reported in WBRS. The hours were doubled in some
        instances.
    •   Time sheets were missing for some members.
    •   Mathematical errors on some time sheets resulted in the overstatement of hours
        served.
    •   Some members reported on their time sheets an inordinate number of hours
        for lesson planning activities, primarily on weekends when the members
        were unsupervised. The hours were questioned because the members were
        unsupervised and lesson planning does not appear to be a primary responsibility
        for AmeriCorps members.

As a result, we have questioned the education awards totaling $122,850 earned by the 26
members.

YMCA Response

The YMCA acknowledged that there were inaccuracies in their recording of member
service hours. They have now implemented enhanced internal audit functions and a
compliance system to guard against any similar problems. However, they expressed
disagreement with portions of the finding for the following reasons:

    •   The Web-Based Reporting System (WBRS) was unavailable to them for input of
        members’ service hours at the end of program year 2004/2005.
    •   The method used by the YMCA to account for members’ service hours and record
        them in WBRS may have led to some confusion.
    •   Member service hours earned in summer camp, holiday camp and for lesson
        planning should be allowable as credit toward education awards because they are
        part of the members’ regular assignments.


                                   10
Auditor’s Comments

      Although the YMCA disagreed with portions of the finding, they did not provide
      documentation to justify removal of the questioned costs from the report. However, we
      have modified the finding to question the amount of the education awards earned by
      members since the Corporation did suspend education awards to some members. With
      regard to the member’s service hours, reliance was placed on the member time sheets that
      were provided to the Office of Inspector General and alleged to be all time sheets
      prepared by the members during their terms of service. In those instances where
      exceptions were noted, the time sheets did not show a sufficient number of creditable
      service hours for the member to earn an education award.

   3. AmeriCorps Provisions (2002), A(9)(b), Definitions, Member, state that a member must
      be an individual “[w]ho is a U.S. citizen, U.S. national or lawful permanent resident alien
      of the United States;” and B(6)(a), Eligibility, Recruitment, and Selection, Eligibility to
      Enroll, state that a grantee may select as a member only those who are eligible to enroll
      in AmeriCorps.

      A review of 23 member files at the YMCA disclosed that three members were ineligible
      to serve in the program because there was no documentation in the files to show proof of
      U.S. citizenship or lawful permanent resident alien status. As a result, we have
      questioned the living allowances of $17,926 paid to the three members. These members
      did not earn education awards.

      YMCA Response

      The YMCA indicated that most of the missing birth certificates had been located and they
      expect to provide additional information on the topic during the audit resolution process.

      Auditor’s Comments

      Since the YMCA did not provide documentation to show proof of eligibility for the three
      members, the questioned costs remain in the report.

   4. AmeriCorps Provisions (2002), B(11)(b), Living Allowances, Other In-Service Benefits,
      and Taxes, Living Allowance Distribution, state that “[t]he living allowance is designed
      to help members meet the necessary living expenses incurred while participating in the
      AmeriCorps program.”

      A review of the files on members who served in the program at the Fund for the City of
      New York disclosed that nine members were paid living allowances from the grant after
      the early completion of their service contracts. We have questioned living allowances
      totaling $7,686 paid in PY 2002/2003, because the payments were made to the nine
      members when they were no longer participating in the AmeriCorps program.

   5. AmeriCorps Provisions, B(11)(b), Living Allowances, Other In-Service Benefits, and
      Taxes, Living Allowance Distribution, state that “[t]he living allowance is designed to


                                           11
   help members meet the necessary living expenses incurred while participating in the
   AmeriCorps program.”

   A review of 14 files on members who served in the program during PYs 2002-2004 at
   Oswego City-County Youth Bureau disclosed that four members were paid living
   allowances after the early completion of their service. We have questioned the living
   allowances totaling $2,928, because the payments were made to these members after they
   were no longer participating in the AmeriCorps program.

6. AmeriCorps Provisions (2002), A(14)(b), and (2003 and 2004) A(9)(b), Definitions,
   Member, state that a member must be an individual “[w]ho is a U.S. citizen, U.S. national
   or lawful permanent resident alien of the United States;” and B(6)(a), Eligibility,
   Recruitment, and Selection, Eligibility to Enroll, state that a grantee may select as a
   member only those who are eligible to enroll in AmeriCorps.

   A review of 136 member files at Pace University disclosed that one of the members was
   ineligible to serve in the AmeriCorps program. The subgrantee had not obtained
   documentation from the member to show proof of U.S. citizenship or lawful permanent
   resident alien status. During the course of our review, the subgrantee determined that the
   member was actually ineligible to serve in the program. As a result, we have questioned
   the living allowances of $3,615, paid to the member. Also, we have questioned the
   education award totaling $2,362.

7. OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B.14,
   Selected Items of Cost, Entertainment Costs, states that costs of amusement, diversion,
   social activities, ceremonials, and costs relating thereto, such as meals, lodging, rentals,
   transportation, and gratuities are unallowable.

   The After School Corporation held a year-end celebration for its members and charged
   $6,774 to the grant. For PY 2002/2003, the subgrantee charged the costs as other
   member support costs, travel costs, and training and education costs. The entertainment
   costs represented 75 percent of its budget for other member support, 32 percent of the
   budget for travel, and less than 1 percent of the budget for training and education. These
   costs were charged in the following categories: Catering, $2,475; Travel, $1,672; Room
   Rental, $1,090; Awards and Plaques, $553; Disk Jockey, $350; Celebration Supplies,
   $257; Decorations, $220; Invitations, $144; and Photography, $13. We have questioned
   the $6,774 in costs charged to the grant because the funds were not used to further the
   goals of the AmeriCorps program and were not allowable under OMB Circular A-122.




                                        12
                                                                                             Schedule B


                     New York State Office of National and Community Service
                            Schedule of Claimed and Questioned Costs
                       Award No. 03ACHNY001 (AmeriCorps Competitive)
                          September 1, 2003, through September 2, 2006


                                                                               Questioned
                                           Budgeted          Claimed                Education
Subgrantees                                 Costs             Costs      Costs        Awards      Notes
Town of West Seneca Youth Bureau          $1,135,778         $568,990         0          0
The Institute for Human Service              358,399          125,216         0          0
Pace University                              243,172          137,967         0          0
YMCA of Greater New York                   1,381,539          716,796   $20,319   $153,563       8, 9, & 10
Fund for the City of New York                640,000          184,202     3,833          0            11
Harlem Children’s Zone                     2,919,241        1,834,309         0          0
The After School Corporation               2,279,723        1,634,401     6,729          0           12
  Sub-Total                               $8,957,852       $5,201,881   $30,881   $153,563
Others                                     4,070,694        2,246,557         0          0
  Total                                  $13,028,546       $7,448,438   $30,881   $153,563


                                      Categories of Questioned Costs

    •     Eligibility requirements not supported by documentation           $24,152
    •     Education awards not supported by documentation                   153,563
    •     Unallowable costs (OMB Circular A-122)                              6,729
             Total                                                         $184,444



NOTES:

     8. AmeriCorps Provisions (2004), B(6)(a), Eligibility, Recruitment and Selection,
        Eligibility to Enroll, state that “[t]he Grantee is responsible for obtaining and maintaining
        adequate documentation to demonstrate the eligibility of members.” In addition,
        AmeriCorps Provisions (2004), C(22)(c)(ii), Time and Attendance Records, AmeriCorps
       Members, state that “[t]he Grantee must keep time and attendance records on all
       AmeriCorps members in order to document their eligibility for in-service and post-
       service benefits. Time and attendance records must be signed and dated both by the
       member and by an individual with oversight responsibilities for the member.”

          A review of the files on the 119 members who served in the AmeriCorps program at the
          YMCA during PY 2004/2005 identified 25 members who were ineligible to receive all or
          parts of their living allowances. The members were ineligible to receive all or parts of
          their living allowances for the following reasons:




                                                    13
       •   Member files were not always available to show that the members were eligible to
           serve in the AmeriCorps program.
       •   Time sheets were not available to document that the members actually served on
           AmeriCorps projects.
       •   Members were paid living allowances after the termination of their services as
           AmeriCorps members.

   As a result, we have questioned $14,688 in living allowances paid to the 25 members
   during PY 2004/2005.

   YMCA Response

   The YMCA response on this issue is summarized in Note 1.

   Auditor’s Comments

   The auditor’s comments are shown in Note 1.

9. AmeriCorps Provisions (2004), A(14)(b), Definitions, Member, state that a member must
   be an individual “[w]ho is a U.S. citizen, U.S. national or lawful permanent resident alien
   of the United States;” and B(6)(a), Eligibility, Recruitment, and Selection, Eligibility to
   Enroll, state that a grantee may select as a member only those who are eligible to enroll
   in AmeriCorps.

   At the YMCA, a review of 23 member files disclosed that one member was ineligible to
   serve in the program during PY 2004/2005 because there was no documentation in the
   member’s file to show proof of U.S. citizenship or lawful permanent resident alien status.
   As a result, we have questioned the living allowance of $5,631 paid to this member. The
   member did not earn an education award.

   YMCA Response

   The YMCA response on to this issue is summarized in Note 3.

   Auditor’s Comments

   The auditor’s comments are shown in Note 3.

10. AmeriCorps Provisions (2004), B(12), Post-Service Education Awards, state that “[i]n
    order to receive a full education award, a member must perform the minimum hours
    of service as required by the Corporation and successfully complete the program
    requirements as defined by the Program. For example, if successful completion of a
    full-time program requires 1,800 service hours, members in that particular program
    are not eligible for an education award simply upon completion of 1,700 hours.” In
    addition, AmeriCorps Provisions, C(22)(c)(ii), Time and Attendance Records,
    AmeriCorps Members, state that “[t]he Grantee must keep time and attendance records on


                                        14
   all AmeriCorps members in order to document their eligibility for in-service and post-
   service benefits. Time and attendance records must be signed and dated both by the
   member and by an individual with oversight responsibilities for the member.”

   At the YMCA, the review of records showed that 66 of the 119 members who served in
   the program during PY 2004/2005 had completed the program and earned education
   awards. However, our review disclosed that 38 of the 66 members were ineligible to
   receive education awards for the following reasons.

       •   Time sheets did not always support the number of hours reported in the
           Web-Based Reporting System (WBRS) as being served by members.
       •   Time sheets were changed after submission by the members to increase the
           number of hours served and to report the hours in WBRS. The hours were
           doubled in some instances.
       •   Time sheets were missing for some members.
       •   Mathematical errors on some time sheets resulted in the overstatement of the
           hours served.
       •   Some members reported on their time sheets an inordinate number hours on
           lesson planning activities, primarily on weekends when the members were
           unsupervised.      The hours were questioned because the members were
           unsupervised and because lesson planning does not appear to be a primary
           responsibility of AmeriCorps members.

   As a result, we have questioned the education awards totaling $153,563 earned by these
   38 members.

   YMCA Response

   The YMCA response on this issue is summarized in Note 2.

   Auditor’s Comments

   The auditor’s comments are shown in Note 2.

11. AmeriCorps Provisions (2004), A(14)(b), Definitions, Member, state that a member must
    be an individual “[w]ho is a U.S. citizen, U.S. national or lawful permanent resident alien
    of the United States;” and B(6)(a) Eligibility, Recruitment, and Selection, Eligibility to
    Enroll, state that a grantee may select as a member only those who are eligible to enroll
    in AmeriCorps.

   A review of 23 member files at the Fund for the City of New York disclosed that one
   member was ineligible to serve in the program during PY 2004/2005 because the proof of
   eligibility was a Canadian passport. As a result, we have questioned the living allowance
   of $3,833 paid to this member. This member was terminated on March 8, 2005, and did
   not receive an education award.



                                        15
12. OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B.14,
    Selected Items of Cost, Entertainment Costs, states that costs of amusement, diversion,
    social activities, ceremonials, and costs relating thereto, such as meals, lodging, rentals,
    transportation, and gratuities are unallowable.

   The review disclosed that The After School Corporation held a year-end celebration for
   its members and charged the $6,729 cost to the grant. For PY 2003/2004, the subgrantee
   charged the costs as travel and member training. The entertainment costs represented 30
   percent of their annual budget for travel and 26 percent of their annual budget for
   training. These costs were charged in the following categories: Catering, $2,500; Airfare,
   $1,433, Room Rental, $1,080; Plaques, $694; Lodging, $456; Disk Jockey, $400;
   Decorations, $79; Award Ceremony, $71; and Photography, $16. We have questioned
   the $6,729 in costs charged to the grant because the funds were not used to further the
   goals of the AmeriCorps program and were not allowable under OMB Circular
   A-122.




                                        16
                                                                                               Schedule C


                    New York State Office of National and Community Service
                           Schedule of Claimed and Questioned Costs
                       Award No. 03AFHNY001 (AmeriCorps Formula)
                         September 3, 2003, through September 2, 2005


                                                                                 Questioned
                                             Budgeted       Claimed                   Education
Subgrantees                                   Costs          Costs          Costs       Awards             Notes
New York Corps Collaboration            $913,305           $540,453             0             0
Town of West Seneca Youth Bureau          852,663            631,264            0             0
Phoenix House Foundation                  522,557            321,962            0             0
The Institute for Human Services          127,997            117,135            0             0
Oswego City/County Youth Bureau           326,400            211,822            0             0
The After School Corporation              128,000            104,916            0             0
Research Foundation of SUNY-Oneonta       306,779            153,670     $496,268*            0      13 & 14
Monroe Community College                  665,200            461,282            0             0
YMCA of Greater New York                  127,987            125,698       15,426       $28,350    15, 16 & 17
Youth Resource Development Corporation    326,395            203,229       20,593             0         18
Pace University                           128,000            124,052            0             0
Fund for the City of New York             128,000            116,376       14,342             0            19
Student Conservation Association, Inc.    537,200            286,334          814             0            20
  Sub-Total                            $5,090,483         $3,398,193     $547,443**     $28,350
Others                                      4,525,763      2,013,371            0         0
  Total                                    $9,616,246     $5,411,564     $547,443** $28,350

* Of the questioned costs, $1,176 was charge to Federal Share and $495,092 was charged as match.

** Of the total questioned costs, $52,351was charged to Federal Share and $495,092 was charged as match.



                                     Categories of Questioned Costs

    •     Eligibility requirements not supported by documentation            $ 27,899
    •     Education awards not supported by documentation                      28,350
    •     Ineligible match of grant cost                                      495,092
    •     Unallowable costs                                                    24,452
            Total                                                           $575,793


NOTES:

    13. AmeriCorps Provisions (2004), B(9)(a), Release of Participation, Compelling
        Circumstances, state that “[t]he Grantee is responsible for determining whether a
        member’s personal circumstances are sufficiently compelling to justify release on this
        basis. If a grantee releases a member for compelling personal circumstances, the Grantee



                                                  17
   may elect either to authorize a prorated educational award or to suspend service for up to
   two years. If a term of service is temporarily suspended, the member will not accrue
   service hours or receive benefits during the term of suspension.”

   The Research Foundation of SUNY – Oneonta suspended an AmeriCorps member for
   compelling reasons on March 1, 2005, but did not take action to suspend the member’s
   living allowance. Therefore, we have questioned $1,176 in living allowances paid to the
   member between March 1, 2005 and June 15, 2005.

14. 45C.F.R. § 2543.23, Cost sharing or matching, provides, in part, that “[a]ll contributions,
    including cash and third party in-kind, shall be accepted as part of the recipient's cost
    sharing or matching when such contributions meet all of the following criteria…. Are not
    paid by the Federal Government under another award, except where authorized by
    Federal statute to be used for cost sharing or matching.” In addition, AmeriCorps
    Provisions, B(13)(b), Matching Requirements, Cash Match for Member Costs,
    specifically state that “[t]he Grantee’s matching contributions for Member Costs
    (excluding health costs) must be in non-federal monies.”

   The Research Foundation of SUNY - Oneonta reported on its AmeriCorps financial
   reports that Federal funds were used during PYs 2002/2003, 2003/2004, and 2004/2005
   for cost matching purposes. The subgrantee reported, for cost matching purposes, a total
   of $495,092 in Federal funds it received under the U.S. Department of Education’s No
   Child Left Behind Program. Of the amount, $41,745 was used to match member costs
   and $453,347 was used to match member support costs. The Federal statute does not
   specifically authorize the No Child Left Behind Program funds to be used for cost
   matching purposes and we have questioned the $495,092 in matching costs reported by
   the subgrantee on its financial reports.

15. AmeriCorps Provisions (2003), B(6)(a), Eligibility, Recruitment and Selection, Eligibility
    to Enroll, state that “[t]he Grantee is responsible for obtaining and maintaining adequate
    documentation to demonstrate the eligibility of members.” In addition, AmeriCorps
    Provisions (2003), C(22)(c)(ii), Time and Attendance Records, AmeriCorps Members,
    state that “[t]he Grantee must keep time and attendance records on all AmeriCorps
    members in order to document their eligibility for in-service and post-service benefits.
    Time and attendance records must be signed and dated both by the member and by an
    individual with oversight responsibilities for the member.”

   A review of the files of 19 members who served in the AmeriCorps program at the
   YMCA during PY 2003/2004 identified 10 members who were ineligible to receive all or
   parts of their living allowances. The members were ineligible to receive all or parts of
   their living allowances for the following reasons:

       •   Member files were not always available to show that the members were eligible to
           serve in the AmeriCorps program.
       •   Time sheets were not available to document that the members actually served on
           AmeriCorps projects.


                                        18
       •   Members were paid living allowances after the termination of their services as
           AmeriCorps members.

   As a result, we have questioned $12,381 in living allowances paid to the 10 members
   during PY 2003/2004.

   YMCA Response

   The YMCA response on this issue is summarized in Note 1.

   Auditor’s Comments

   The auditor’s comments are shown in Note 1.

16. AmeriCorps Provisions (2003), B(12), Post-Service Education Awards, state that “[i]n
    order to receive a full education award, a member must perform the minimum hours of
    service as required by the Corporation and successfully complete the program
    requirements as defined by the Program. For example, if successful completion of a full-
    time program requires 1,800 service hours, members in that particular program are not
    eligible for an education award simply upon completion of 1,700 hours.” In addition,
    AmeriCorps Provisions (2003), C(22)(c)(ii), Time and Attendance Records, AmeriCorps
    Members, state that “[t]he Grantee must keep time and attendance records on all
    AmeriCorps members in order to document their eligibility for in-service and post-
    service benefits. Time and attendance records must be signed and dated both by the
    member and by an individual with oversight responsibilities for the member.”

   A review of the records showed that 13 of the 19 members who served in the program at
   the YMCA during PY 2003/2004 completed the program and received education awards.
   However, the review disclosed that 12 of the 13 members who received the education
   awards were ineligible for the awards for the following reasons:

       •   Time sheets did not always support the number of hours reported in WBRS.
       •   Time sheets were changed after submission by the members to increase the
           number of hours served and to report the hours in WBRS. The hours were
           doubled in some instances.
       •   Time sheets were missing for some members.
       •   Mathematical errors on some time sheets resulted in the overstatement of the
           hours served.
       •   Some members reported on their time sheets an inordinate number of hours for
           lesson planning activities, primarily on weekends when the members were
           unsupervised. The hours are questioned because the members were unsupervised
           and lesson planning does not appear to be a primary responsibility for
           AmeriCorps members.

   As a result, we have questioned the education awards totaling $28,350 earned by the 12
   members.


                                       19
   YMCA Response

   The YMCA Response on this issue is summarized in Note 2.

   Auditor’s Comments

   The auditor’s comments are shown in Note 2.

17. AmeriCorps Provisions (2003), C(22)(a), Financial Management Provisions, General,
    state that “[f]inancial management systems must be capable of distinguishing
    expenditures attributable to this grant from expenditures not attributable to this grant.” In
    addition, OMB Circular A-110, Uniform Administrative Requirements for Grants and
    Agreements With Institutions of Higher Education, Hospitals, and Other Non-Profit
    Organizations, Subpart C.21(b)(1), Financial and Program Management, Standards for
    financial management systems, requires accurate, current and complete disclosure of the
    financial results of each federally-sponsored project or program.

   The YMCA could not provide documentation to support $3,045 in expenditures reported
   on its periodic expense report in PY 2003/2004 for salaries and wages. The subgrantee
   was unable to explain why the documentation was not available. Therefore, we have
   questioned the $3,045 in claimed costs.

   YMCA Response

   The YMCA indicated in its response that the questioned costs in this note are not being
   challenged.

   Auditor’s Comments

   Since the YMCA agreed with the questioned costs, no changes have been made to the
   note.

18. AmeriCorps Provisions (2004), C(22)(a), Financial Management Provisions, General,
    state that “[f]inancial management systems must be capable of distinguishing
    expenditures attributable to this grant from expenditures not attributable to this grant.” In
    addition, OMB Circular A-110, Uniform Administrative Requirements, for Grants and
    Agreements With Institutions of Higher Education, Hospitals, and Other Non-Profit
    Organizations, Subpart C.21(b)(1), Financial and Program Management, Standards for
    financial management systems, requires accurate, current and complete disclosure of the
    financial results of each federally sponsored project or program.

   The Youth Resource Development Corporation could not provide documentation to
   support $20,593 in expenditures reported on its March 31, 2005, periodic expense report
   for PY 2004/2005 operations. The subgrantee had gone out of business and filed for
   bankruptcy; as a result, the program staff was not available to provide further information



                                         20
   on the expenditures reported after December 31, 2004. We have therefore questioned the
   $20,593 in claimed costs.

19. AmeriCorps Provisions (2003), B(11)(b), Living Allowances, Other In-Service Benefits,
    and Taxes, Living Allowance Distribution, state that “[t]he living allowance is designed
    to help members meet the necessary living expenses incurred while participating in the
    AmeriCorps program.”

   A review of the files on members who served in the program at the Fund for the City of
   New York disclosed that eight members were paid living allowances from the grant after
   the early completion of their service. We have questioned living allowances totaling
   $14,342 paid in PY 2003/2004, because the payments were made to the eight members
   when they were no longer participating in the AmeriCorps program.

20. AmeriCorps Provisions, C(22)(e), Financial Management Provisions, Consultant
    Services, state that payments to individuals for consultant services under this grant will
    not exceed $443 per day.

   The review at the Student Conservation Association, Inc. disclosed that the subgrantee
   had reported expenditures for consultant services that exceeded the allowable daily rate
   of $443. The subgrantee had hired a consultant for two days at a cost of $850 per day.
   We have questioned $814 for the difference between the allowable daily rate and the
   claimed amount.




                                        21
                                                                                        Schedule D


                  New York State Office of National and Community Service
                          Schedule of Claimed and Questioned Costs
                Award No. 02AHHNY033 (AmeriCorps State Homeland Security)
                         September 1, 2002, through August 31, 2005

                                                                            Questioned
                                           Budgeted         Claimed                 Education
Subgrantees                                 Costs            Costs      Costs        Awards     Notes
Pace University                          $478,369          $385,160          0            0
New York Corps Collaboration               907,198           525,765         0            0
Fund for the City of New York              984,000           810,951   $16,562            0      21
 Sub-Total                              $2,369,567        $1,721,876   $16,562            0
Others                                     502,997           286,357         0            0
  Total                                 $2,872,564        $2,008,233   $16,562            0


                                      Categories of Questioned Costs

    •     Eligibility requirements not supported by documentation         $16,562


NOTES:

    21. AmeriCorps Provisions (2004), B(11)(b), Living Allowances, Other In-Service Benefits,
        and Taxes, Living Allowance Distribution, state that “[t]he living allowance is designed
        to help members meet the necessary living expenses incurred while participating in the
        AmeriCorps program.”

          A review of the files on members who served in the program at the Fund for the City of
          New York disclosed that 20 members were paid living allowances from the grant after
          the early completion of their service contracts. We have questioned living allowances
          totaling $16,562 paid during PYs 2002 through 2004, because the payments were made
          to the 20 members when they were no longer participating in the AmeriCorps program.




                                                     22
                                                                                                     Schedule E


                   New York State Office of National and Community Service
                          Schedule of Claimed and Questioned Costs
                       Award No. 01SCSNY034 (Administrative grant)
                         January 1, 2002, through February 27, 2004
                       Award No. 04CAHNY001 (Administrative grant)
                        January 1, 2004, through December 31, 2006
         .


                                             Budgeted         Claimed         Questioned
Programs                                      Costs            Costs            Costs                Notes
Administrative (01SCSNY034)                  $917,090         $619,462         $140,848*               22
Administrative (04CAHNY001)                   976,309           91,243           79,724**              22
 Total                                      $1,893,399        $710,705         $220,572***

* Of the questioned costs, $70,424 was charged to Federal Share and $70,424 was charged as match.

** Of the questioned costs, $39,862 was charged to Federal Share and $39,862 was charged as match.

*** Of the total questioned costs, $110,286 was charged to Federal Share and $110,286 was charged as match.



                                     Categories of Questioned Costs

    •    Salary not supported by documentation                               $110,286
    •    Match not supported by documentation                                 110,286
            Total                                                            $220,572



NOTES:

    22. OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
        Attachment B.8.h, Compensation for Personal Services, Support of salaries and wages,
        requires that “[w]here employees work on multiple activities or cost objectives, a
        distribution of their salaries or wages will be supported by personnel activity reports or
        equivalent documentation….unless a statistical sampling system….or other substitute
        system has been approved by the cognizant Federal agency.”

         The Commission (ONCS) charged its administrative grants the entire salaries of three
         individuals who worked for other divisions within the New York State Office of Children
         and Family Services and provided administrative support to the AmeriCorps program
         operations on a part-time basis. These salaries were split 50/50 between the Federal
         share and the grantee matching share of the administrative grants, although the
         individuals did not work full time on the AmeriCorps program operations. Furthermore,


                                                  23
the administrative support was actually provided by various individuals, not necessarily
the ones whose salaries were charged to the administrative grants. As a result, we have
questioned the salaries for the three employees charged against the grants totaling
$220,572 ($110,286 Federal and $110,286 grantee matching costs).




                                   24
                    Corporation for National and Community Service
                 New York State Office of National and Community Service
                     Notes to Consolidated Schedule of Award Costs


Summary of Significant Accounting Policies

Reporting Entity

The accompanying Consolidated Schedule of Award Costs includes amounts budgeted,
claimed, and questioned under AmeriCorps, Homeland Security Special Volunteer Program,
Administrative, Program Development and Training and Disability grants awarded to the New
York State Office of National and Community Service (ONCS) by the Corporation for National
and Community Service (Corporation) for the period July 1, 2002 through March 31, 2005.

The ONCS awards its AmeriCorps grant funds to numerous subgrantees that administer the
AmeriCorps program and report financial and programmatic results to ONCS.

Basis of Accounting

The accompanying Schedule has been prepared to comply with the provisions of the grant
agreements between the Corporation and ONCS. The information presented in the Schedule has
been prepared from financial reports submitted by ONCS to the Corporation. The basis of
accounting used in preparation of these reports differs slightly from accounting principles
generally accepted in the United States of America as follows:

Equipment

Equipment is charged to expense in the period during which it is purchased instead of being
recognized as an asset and depreciated over its useful life. As a result, the expenses reflected in
the Consolidated Schedule of Award Costs include the cost of equipment purchased during the
period rather than a provision for depreciation. The equipment is owned by ONCS and is used in
the program for which it was purchased or in other future authorized programs. However, the
Corporation has a reversionary interest in the equipment. The disposition as well as the
ownership of any proceeds therefore is subject to Federal regulations.

Inventory

Minor materials and supplies are charged to expense during the period of purchase.




                                            25
Accordingly, we do not express such an opinion. The results of our tests of compliance disclosed
the following instances of noncompliance that are required to be reported under generally accepted
government auditing standards.

Finding No. 1 - Subgrantee Files Were Not In Compliance With Program Requirements

We reviewed 207 member files at 14 subgrantees and found that some member files at 10 of the 14
subgrantees did not fully comply with program requirements. Of the 159 member files reviewed at
the 10 subgrantees listed below, we determined that at least 86 member files contained one or more
of the following types of exceptions:

                                         Enrollment,                                   Education
                                Mid-                 Timeliness                                    Criminal
                    Member Term/Final Changed         of Time
                                                                Member       Position   Award -
                                                                                                   Records
                                                                                                                Eligibility
                      Files               Status or             Contracts Descriptions Minimum                Documentation
  Subgrantee                 Evaluations               Sheets                                       Checks
                    Reviewed             Exit Forms                                      Hours
                                                                         Exceptions

New York Corps
                       10         10          5
 Collaboration

   Research
 Foundation of         10         4           6          6
SUNY- Oneonta

    Monroe
   Community           16         3           1                                                       5
    College

   YMCA of
  Greater New          23         19         19                               18          10         20             4
     York

Fund for the City
                       23         4           3                    1                                                1
  of New York

     Harlem
                       20         2           2                    4           4                     20
 Children’s Zone

 Youth Resource
  Development          10                                                                             6
     Corp.

 Pace University       14         3           7                                                                     1

    Student
 Conservation          13         4
Association, Inc.


The After School
                       20                                                                             4
  Corporation

    TOTALS            159         49         43          6         5          22          10         55             6




    •    Mid-Term/Final Evaluations - Program/site supervisors had not prepared mid-term and/or
         end-of-term performance evaluations for 49 members. As a result, the members may not
         have been aware of deficiencies in their performance, areas in need of improvement, or the



                                                        27
    number of hours needed to complete their assignments. This condition existed because
    proper attention was not given to performing evaluations by site supervisors and
    management did not provide adequate oversight. AmeriCorps Provisions, B(7)(g), Training,
    Supervision and Support, Performance Reviews, require mid-term and end-of-year
    performance evaluations of members focusing on whether the member has (1) completed the
    required number of service hours, (2) satisfactorily completed assignments, and (3) met
    other performance criteria that were communicated at the beginning of the term of service.

•   Enrollment, Change of Status or Exit Forms - Enrollment, change of status, and/or exit
    forms for 43 members were either not filed in a timely manner, were missing, or were not
    signed and dated. As a result, management officials did not have accurate up-to-date
    information on the number of members enrolled and the amount of education awards earned.
    This condition was generally attributed to short time frames for reporting, late submission of
    information by subgrantees, and lack of proper oversight. AmeriCorps Provisions (2004),
    B(8)(c), Terms of Service, Notice to the Corporation’s National Service Trust, require that
    the grantee notify the Corporation within 30-days of a member’s enrollment, suspension,
    and completion of service. Also, AmeriCorps Provisions, B(16)(b)(iii), AmeriCorps
    Member-Related Forms, Exit/End-of-Term-of-Service Forms, state that exit and end-of-
    term-of-service forms must be submitted no later than 30 days after a member exits the
    program or finishes his or her term of service. Hard copies of these forms must be
    maintained after they have been entered into WBRS.

•   Timeliness of Time Sheets - The time sheets for six members at the Research Foundation of
    SUNY- Oneonta were either not turned in to the supervisors in a timely manner or the
    supervisors did not approve them timely. For three of the members, the supervisors
    approved the time sheets before the pay period ended and before the members had served all
    the hours claimed. As a result, these time sheets become more vulnerable to improper
    reporting of service Hours. AmeriCorps Provisions, C(22)(c)(ii), Financial Management
    Provisions, Time and Attendance Records, AmeriCorps Members, require time and
    attendance records on all members in order to document their eligibility for benefits.

•   Member Contracts - One member contract was missing at the Fund for the City of New
    York and four member contracts were missing at the Harlem Children’s Zone. Also, at the
    Harlem Children’s Zone, the contracts for three other members were signed months after
    their service periods began. As a result, members may have served without a complete
    understanding of their responsibilities and rights. This condition was attributed to lack of
    oversight. AmeriCorps Provisions, B(7)(b), Training, Supervision and Support, Member
    Contracts, require members to sign contracts that stipulate their responsibilities and rights.

•   Position Descriptions - Position descriptions were not on file for 22 members. As a result,
    there was no assurance that the members were fully aware of their responsibilities. This
    condition was attributed to lack of oversight. AmeriCorps Provisions, B(7)(b), Training,
    Supervision and Support, Member Contracts, require members to sign contracts that
    stipulate, among other things, a position description.




                                        28
   •   Education Award (Minimum Hours) - At the YMCA, for program years 2002 through 2005,
       we determined that 10 members had received education awards even though they had not
       served the required number of hours. As a result, these 10 members earned education
       awards that they were not entitle to receive. In most cases, the awards were based on an
       inflated number of hours served. Time sheets were altered after the members and/or site
       supervisor signed them. There was a notation in some files that members’ time was being
       doubled because they worked on weekends. AmeriCorps Provisions, B(12), Post-Service
       Education Awards, require members to perform a minimum of 1,700 hours of service within
       a year in order to receive a full-time education award amount, and a minimum of 900 hours
       of service in order to receive a half-time award.

   •   Criminal Records Checks – Documentation of a criminal records check was either not
       provided or was of limited coverage for 55 members. For eight of the members, the
       criminal records checks were performed, but were limited to the local area or data in the
       New York State Office of Children and Family Services’ database. The member files
       indicated that all 55 members had substantial contact with children. As a result, children
       served by members without a criminal records check and by those with a limited record
       check, were at potential risk. This condition occurred in some cases because subgrantees
       felt a need to start the program before the criminal records check could be completed. With
       regard to the limited records checks, ONCS believed that the guidance was unclear as to
       what constituted an acceptable criminal records check and had considered all completed
       criminal records checks as being acceptable. AmeriCorps Provisions, B(6)(h), Eligibility,
       Recruitment and Selection, Criminal Record Checks, state that “[p]rograms with members or
       employees who have substantial direct contact with children (as defined by state law) or
       who perform service in the homes of children or individuals considered vulnerable by the
       program, shall, to the extent permitted by state and local law, conduct criminal record
       checks on these members or employees as part of the screening process.” This provision
       also states that documentation of criminal record checks must be maintained consistent with
       State law.

   •   Eligibility Documentation - Six members did not provide acceptable documentation of
       citizenship or permanent resident status that is a requirement for participation in the
       program. In five cases, documentation was not available and, in one case, a Canadian
       passport was accepted as proof of eligibility. As a result, six ineligible members
       participated in the AmeriCorps program. This condition was generally attributed to a lack
       of oversight. AmeriCorps Provisions, B(14)(b), Member Records and Confidentiality,
       Verification, require that the subgrantee maintain verifiable records that document each
       member’s eligibility to serve pursuant to the member eligibility requirement.

As a result of the conditions described above, ONCS could not always verify that member
eligibility requirements were met. In order to ensure that grant funds are used for the purpose
intended, it is important to verify that only qualified members have been allowed to serve. Also,
having members in service who have not had a criminal records check, and who have substantial
contact with children (as defined by State law), puts these children at risk.




                                          29
These conditions occurred because: (1) program managers did not always adequately document
members’ eligibility; (2) subgrantees were not provided with clear guidance on the requirements for
timely and thorough criminal record checks; and (3) members did not always provide the
information promised during the enrollment process. As part of its monitoring requirements, ONCS
is responsible for ensuring that subgrantees are adequately trained in programmatic provisions and
procedures to ensure that members are eligible to serve, are paid support costs in accordance with
AmeriCorps provisions, and have met all eligibility requirements for education awards.

Recommendation

The Corporation should provide assistance as necessary to assure that ONCS:

   1. Continue to train and monitor its subgrantees on obtaining complete documentation of
      member eligibility before enrollment and on maintaining all required documentation in
      individual member’s files. Specifically, we recommend that ONCS ensure that subgrantees:

       •      Complete, sign, date and include in the member files copies of the member contract
              and the position description.

       •      Adequately document and ensure member citizenship and/or legal residency.

       •      Comply with grant requirements for conducting member evaluations and retaining
              documentation.

       •      Document member enrollment, change of status, and exit promptly and submit this
              information to the Corporation on a timely basis.

       •      Record member hours timely, accurately and in accordance with program provisions.

   2. Provide additional guidance to subgrantees on the need to conduct thorough and timely
      criminal record checks, as part of the screening process, on those members who have
      substantial contact with children (as defined by State law).

ONCS’ Response

ONCS stated that with the exception of the YMCA, most of the findings were minor and that
checklists and other tools are provided to assist programs in maintaining required documentation.
Also, ONCS stated that it provides continuous training and monitoring of subgrantees and that
questioned costs will be reviewed and recovered, as appropriate.

Auditor’s Comments

ONCS stated in its response that most of the compliance issues were minor and did not indicate
questioned costs. It also implied that the issues would be addressed during ongoing training and
monitoring of subgrantees.



                                           30
Finding No. 2 - Grants Were Not Closed In A Timely Manner and FSRs Were Not Submitted
                Timely

ONCS needs to improve its financial management controls to ensure that financial status reports
(FSRs) are submitted to the Corporation in accordance with the timeframes required by the
AmeriCorps Provisions. During our audit period, seven FSRs were not submitted to the
Corporation by their due date. Four of the FSRs represented final reports needed by the
Corporation to close out expired grants, and three were the grantee’s semi-annual submissions. The
grants with late submissions are listed below.
                                                    Date Due       Date Submitted
01SCSNY034         Administrative                   05/28/04       04/28/05 - Final
02PDSNY034         PDAT                             04/01/05       04/28/05 - Final
00ASCNY033         AmeriCorps Competitive           06/29/04       10/19/04 - Final
00ASFNY033         AmeriCorps Formula               04/01/05       08/04/05 - Final
04CAHNY001         Administrative                   07/31/05       08/29/05
05PTHNY001         PDAT                             07/31/05       08/29/05
05CDHNY001         Disability                       07/31/05       08/29/05

Financial accountability controls and grant monitoring at the Corporation level are weakened when
final financial reports are not submitted in a timely manner. To ensure that grant funds are being
spent for the intended purposes, and in accordance with grant conditions, timely accounting is
necessary. When accounting controls are weakened, it becomes easier to circumvent established
processes.

AmeriCorps Provisions, B(16), Financial Status and Progress Reports, Final Financial Status
Reports, state that a grantee completing the final year of its grant must submit, in lieu of the last
semi-annual Financial Status Report (FSR), a final FSR that is cumulative over the entire project
period. It must be submitted within 90 days after the end of the grant. For the Administrative,
PDAT and Disability grants, the Provisions for Program Development and Training, Disability
Placement and State Administrative Awards, B(5)(a), Reporting Requirements, Financial Status
Reports, state that the grantee shall submit semi-annual cumulative financial reports on July 31 and
January 31 summarizing expenditures during the reporting period.

We were told that, as a result of an OIG pre-audit survey conducted in calendar year 2004, the
Commission became aware of the need to reconcile its financial records with those of the New York
State Office of the Comptroller and with the records of drawdowns from the U.S. Department of
Health and Human Services. Development of new procedures to accomplish these reconciliations
and closeouts resulted in delays in the filings of final FSR reports. However, the Commission has
now developed new procedures and re-assigned responsibility for reconciling FSRs to provide for
timely reporting in the future.




                                           31
Recommendation

The Corporation should ensure that ONCS places a high priority on reconciling and submitting
FSRs within the stipulated time periods and request written time extensions for their grants when
formal closeout cannot be completed within the required time periods.

ONCS’ Response

ONCS acknowledged that financial reports were not submitted in a timely manner. It has hired an
accountant to handle the financial reporting aspects of the AmeriCorps program and has
implemented new grant closeout procedures. The most recent submissions were timely. However,
ONCS still expects to encounter problems meeting timeframes for semi-annual submissions because
of its number of subgrantees and their varied internal processing requirements. Based on these
factors, ONCS stated that time extensions will be requested as needed on a case-by-case basis.

Auditor’s Comments

The procedures described in the ONCS response should be sufficient to prevent the recurrence of
the finding in the future.

Finding No. 3 - Subgrantee Was Not In Compliance With Terms of Contract and AmeriCorps
                Provisions

The YMCA did not have prior approval to place AmeriCorps members at summer and holiday
camps during PYs 2002/2003 through 2004/2005. Although the YMCA believed that its grant
proposals allowed it to place AmeriCorps members at its summer and holiday camps, these
placements were not specifically included in its contract or grant proposals, nor were any
programmatic changes requested and approved by ONCS. As a result, the YMCA AmeriCorps
program was not in compliance with the stated terms and conditions of its contract with ONCS and
the AmeriCorps provisions.

Corporation grants require that when a grantee accepts Federal funds they agree to operate the
program in accordance with the approved grant application and budget. Also, AmeriCorps
Provisions (2004), B(15)(a), Budget and Programmatic Changes, Programmatic Changes, state that
“[p]arent Organizations must obtain the prior written approval of the AmeriCorps program Office
before making the following changes in the approved Program:

       i.     changes in the scope, objectives or goals of the Program, whether or not
              they involve budgetary changes;
       ii.    substantial changes in the level of participant supervision;
       iii.   entering into additional sub-grants or contracts for AmeriCorps activities
              funded by the Grant but not identified or included in the approved
              application and grant budget.”




                                          32
Recommendation

The Corporation should work with ONCS to: (1) determine whether the awarded grants should be
terminated for noncompliance with the approved grant agreements, and (2) determine whether the
living allowances, plus applicable administrative fees, and education awards paid for members who
served at the summer and holiday camps should be questioned.

YMCA Response

The YMCA contends that the program objectives and learning experiences associated with summer
and holiday camps are consistent with after-school activities and with the objectives of its YMCA
School Success AmeriCorps proposals and resulting grants.

ONCS’ Response

ONCS stated that the issue pertains to only one subgrantee (YMCA) and that it will be addressed
during audit resolution.

Auditor’s Comments

Since no additional documentation was provided by the YMCA to show that summer and holiday
camps were specifically mentioned in approved grant documents as planned activities, the finding
and recommendation remain unchanged.




                                          33
                 INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of award costs as presented in the Consolidated Schedule of
Award Costs for the period July 1, 2002 through March 31, 2005, we considered ONCS’s internal
control in order to determine our auditing procedures for the purpose of expressing our opinion on
the financial schedules and not to provide assurance on the internal control. Accordingly, we do not
express such an opinion.

ONCS’s management is responsible for establishing and maintaining internal control. In fulfilling
this responsibility, estimates and judgments by management are required to assess the expected
benefits and related costs of internal control policies and procedures. The objective of internal
control is to provide management with reasonable, but not absolute, assurance that assets are
safeguarded against loss from unauthorized use or disposition. Internal control also provides
assurance that transactions are executed in accordance with management’s authorization and
recorded properly to permit the preparation of the financial schedules in accordance with accounting
principles generally accepted in the United States of America. Because of inherent limitations in
any internal control, errors or irregularities may nevertheless occur and not be detected. Also,
projection of any evaluation of the internal control to future periods is subject to the risk that
procedures may become inadequate because of changes in conditions or that the effectiveness of the
design and operation of policies and procedures may deteriorate.

Our consideration of internal control would not necessarily disclose all matters of internal control
over financial reporting that might be reportable conditions and, accordingly, would not necessarily
disclose all reportable conditions that are also considered to be material weaknesses. Under
standards established by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control. In our judgment, the significant deficiencies could adversely
affect ONCS’s ability to record, process, summarize and report financial data consistent with the
assertions made by management in the financial schedules. We noted the following matters that we
considered to be reportable conditions.

Finding No. 4 - Lack of Time Distribution Reports to Support Charges to the Administrative
                Grants

ONCS charged to its administrative grants the entire salaries of three individuals who worked for
other divisions within the New York State Office of Children and Family Services and provided
administrative support to the AmeriCorps program operations on a part-time basis. These salaries
were split evenly between the Federal share and the grantee cost matching share of the
administrative grants, but the individuals did not work full time on the AmeriCorps program
operations. The administrative support was actually provided by various individuals, not
necessarily the ones whose salaries were charged to the administrative grants. Salary charges for
the individuals providing support to the AmeriCorps program operations were not supported by
time sheets showing the actual level of effort being provided.




                                           34
 This condition occurred because management of the support units did not wish to place additional
 burdens on their employees to maintain the required personnel activity reports. As a result, we have
 questioned $220,572 ($110,286 Federal and $110,286 grantee matching costs) in salaries for three
 employees that were charged against the administrative grants during the audit period.

 OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments, Attachment
 B.8.h, Compensation for Personal Services, Support of salaries and wages, requires that “[w]here
 employees work on multiple activities or cost objectives, a distribution of their salaries or wages
 will be supported by personnel activity reports or equivalent documentation….unless a statistical
 sampling system….or other substitute system has been approved by the cognizant Federal agency.”

 Recommendation

    1. The Corporation should ensure that ONCS develop procedures to require employees that
       provide administrative support to the AmeriCorps program staff on a part-time basis to
       document their time charges by maintaining personnel activity reports or equivalent
       documentation.

    2. The Corporation should also determine the allowability of the questioned grant costs, plus
       the applied administrative rates. Finally, the Corporation should determine if additional
       Federal share should be questioned due to lack of allowable match provided.

 ONCS’ Response

 ONCS agreed that the salaries of three individuals who worked for other divisions and provided
 administrative support to the AmeriCorps program on a part-time basis were charged to the
 administrative grants. ONCS stated that it would be review the current practice and then institute a
 process consistent with OMB Circular A-87 requirements. ONCS also stated that it has $247,000 in
 unclaimed administrative costs and that the questioned costs would be analyzed and adjusted, if
 appropriate.

 Auditor’s Comments

ONCS agreed with the finding and recommendation and has outlined a plan of action. This plan of
 action should be coordinated with the Corporation.

 Finding No. 5 - Timely Action Not Taken on Independent Auditor’s Reports

 On December 15, 2003, a draft independent auditor’s report was issued on the YMCA AmeriCorps
 program operations for the period September 1, 2000 to December 31, 2001, which was prior to the
 period covered by our audit. The report was still in draft format on November 25, 2005. Initially,
 the draft report noted nine weaknesses relating to the internal control structure at the YMCA and
 questioned costs totaling $299,191, of which, $148,623 was AmeriCorps funds. The majority of
 these costs were questioned because the YMCA could not provide time sheets to support the
 expenditures reported for AmeriCorps members and the staff. On July 27, 2005, a revised draft
 report was issued and the questioned costs were reduced to $133,908, of which $36,853 was



                                            35
AmeriCorps funds. The revised draft report was issued after the YMCA provided the auditors with
documentation to support some of the claimed costs. The revised draft report noted that the YMCA
still had some of the internal control weaknesses reported in the first draft report. As of November
25, 2005, ONCS was still awaiting a response from the YMCA on the revised draft report.

According to ONCS, this condition occurred because (1) the person responsible for tracking the
draft report left the agency and the report was not tracked for a long period of time, and (2) the
independent auditors and ONCS had been unable to schedule timely meetings with the YMCA to
discuss the audit issues. The delay in completing the report and addressing the audit issues in a
timely manner allowed the YMCA to continue its operations without improving its internal controls
over member time sheets. ONCS observed similar program weaknesses during its monitoring
reviews in December 2004 and informed the Office of Inspector General in April 2005. The same
internal control weaknesses were found during our audit of the YMCA. Also, the delay in
addressing the weaknesses has prevented the timely recovery of the questioned costs.

45C.F.R. § 2541.260(b)(3), Non-Federal Audit, Subgrantees, requires that appropriate action be
taken within six months after receipt of the audit report in instances of noncompliance with Federal
laws and regulations. Also, AmeriCorps Provisions (2004), C(22)(d), Financial Management
Provisions, Audits, state that “[a] recipient of a Federal grant (pass-through entity) is required in
accordance with paragraph 400(d) of OMB Circular A-133, to do the following with regard to its
subrecipients: …(5) issue decisions and ensure follow-up on audit findings in a timely way.”

Recommendation

The Corporation should ensure that ONCS take immediate action to: (1) obtain the final report, (2)
correct the identified deficiencies, and (3) initiate collection of the AmeriCorps grant funds
questioned in the report.

ONCS’ Response

ONCS stated that a final report was never received from its audit firm despite numerous efforts to
obtain it. ONCS has terminated its contract with that audit firm.

Auditor’s Comments

ONCS should consult with the Corporation on the cost benefits of contracting for another audit of
the YMCA’s activities for PY 2000-2001 since it is questionable whether ONCS can take
meaningful action based only on a draft audit report.

Finding No. 6 - Subgrantee Paid the Housing Costs for Members from Pre-Tax Living
                Allowances

The Student Conservation Association, Inc. gave its “in-residence” members the option of having
their rent paid for them with pre-tax money from their living allowances. The members’ W-2 forms
did not reflect total earnings, taxes payable by the members were not deducted on the amounts
diverted for rental payments, and the employer’s share of fringe benefits was understated. During



                                            36
the period October 2003 through March 2005, the subgrantee deducted a total of $75,641 from its
members’ living allowances and made payments directly to their landlords. This condition occurred
because the subgrantee believed that it was proper to allow members who were required to be
in-residence to make rent payments with pre-tax earnings. The policy of using pre-tax living
allowances to pay for members’ housing costs could expose members to future liability to the Social
Security Administration and the Internal Revenue Service. However, the subgrantee stated that it
had discontinued the practice because of problems encountered when members and landlords had
disagreements or the members moved out of the rental property early.

AmeriCorps Provisions (2004), B(11)(d)(ii), Taxes and Insurance, FICA (Social Security and
Medicare Taxes), state that “[u]nless the Grantee obtains a ruling from the Social Security
Administration or the Internal Revenue Service that specifically exempts its AmeriCorps members
from FICA requirements, the Grantee must pay FICA for any member receiving a living allowance.
The Grantee also must withhold 7.65 percent from the member’s living allowance.” In addition,
AmeriCorps Provisions, B(11)(d)(iii), Taxes and Insurance, Income Taxes, state that “[t]he Grantee
must withhold Federal personal income taxes from member living allowances, requiring each
member to complete a W-4 form at the beginning of the term of service and providing a W-2 form
at the close of the tax year. The Grantee must comply with any applicable state or local tax
requirements.”

Recommendation

The Corporation should work with ONCS to assure that subgrantees are properly informed of the
tax provisions as related to member living allowances. Also, the subgrantee should retroactively
comply with AmeriCorps provisions and make the required payments to the IRS and Social
Security Administration.

ONCS’ Response

ONCS agreed with the finding and stated that action was being taken by the subgrantee to resolve
the matter. Also, ONCS stated that the area will be addressed with subgrantees in training sessions
and monitoring reviews.

Auditor’ Comments

The Corporation should obtain assurance from ONCS that the retroactive payments were made for
the affected members in accordance with the AmeriCorps provisions.

Finding No. 7 - ONCS Claimed Unallowable and Unsupported Costs

The Summary of Results section identified questioned costs, which are described in detail in the
notes to Schedules A through E. These questioned costs consist of costs claimed by the ONCS and
subgrantees for alleged violations of provisions of law, regulation, or grant, or other agreement or
document governing the expenditure of funds; findings that, at the time of the audit, such costs were
not supported by adequate documentation; or a finding that the expenditure of funds for the
intended purpose was unnecessary or unreasonable.



                                           37
Recommendation

We recommend that the Corporation:

       •      Follow up with ONCS to determine if questioned amounts and education awards
              should be allowed, or disallowed and recovered. Also, the Corporation should apply
              the five percent administrative rate to any costs deemed unallowable and recover
              these costs as well.
       •      Make certain that ONCS better train its subgrantees on determining the allowability
              of costs and documentation required to support claimed costs.

       •      Require that ONCS implement review procedures to test the allowability of
              Commission and subgrantee costs.
       •      Make certain that costs incurred and reported directly by ONCS meet all OMB
              circular requirements for allowability.

ONCS’ Response

ONCS contends that the issues relating to questioned costs were the results of individual human
error and not a lack of systems or understanding of requirements of the AmeriCorps program.

Auditor’s Comments

Although the ONCS response provides additional information on the issues relating to the identified
questioned costs, the Corporation still needs to make a determination as to whether the questioned
costs and education awards should be allowed, or disallowed and recovered.




                                           38
                  New York State Office of National and Community Service
                      Follow-Up on Pre-Audit Survey Report Findings
                                  OIG Report No. 04-19



Cotton & Company LLP, conducted a pre-audit survey of ONCS and issued a report to the
Corporation on September 28, 2004. A final management decision was proposed on the pre-audit
survey report on March 30, 2005. We reviewed the findings and recommendations from the pre-
audit survey and determined what ONCS had taken action to address the weaknesses disclosed in
the pre-audit survey report.

Here is a summary of the actions taken to address the issues in the pre-audit survey report.

Finding No. 1 and Recommendation. The pre-audit survey concluded that ONCS’s monitoring
visit results were not being formally considered in the evaluation process for
re-competing applicants. The auditors recommended that ONCS develop procedures to formally
consider past performance by re-competing applicants in the peer review process. This includes
consideration of information on the applicant’s progress toward its goals, timeliness of
programmatic reporting and financial data, accuracy of reporting, attendance at events and
meetings, issues raised during site visits, and any other known issues.

Proposed Management Decision:             Both the Corporation and ONCS agreed with the
recommendation and ONCS developed written policies and procedures in accordance with the
auditor’s recommendations. ONCS also requires subgrantees to complete a Vendor Responsibility
Questionnaire, which states that previous performance is a factor considered in making a
determination that the applicant is a responsible contractor (subgrantee).

Current Status: Our review found that ONCS had developed and implemented procedures to
consider past performance by re-competing applicants in the peer review process.

Finding No. 2 and Recommendation. The pre-audit survey concluded that ONCS maintained
limited documentation to support the procedures it performed to review OMB Circular A-133
reports. The auditor recommended that ONCS create a standardized OMB Circular A-133 review
checklist to provide an efficient way to document review procedures performed, ensure that current
reports are evaluated using online resources where possible, and ensure that information provided to
program administrators is complete.

Proposed Management Decisions:            Both the Corporation and ONCS agreed with the
recommendation and ONCS has implemented a new tracking chart to review and evaluate audit
reports and revised its policies and procedures.

Current Status: Our review found that ONCS has implemented a new tracking system to document
its reviews of OMB Circular A-133 audits reports. We concluded that the new report tracking
system provides the documentation needed to show the work performed during the report review
process.



                                           39
Finding No. 3 and Recommendation. The pre-audit survey concluded that ONCS did not have
adequate procedures to ensure that subgrantees submit FSRs in a timely manner. The auditor
recommended that ONCS strengthen its procedures to actively follow up with subgrantees on late
FSR submissions.

Proposed Management Decision:             Both the Corporation and ONCS agreed with the
recommendation and ONCS revised the language in its contracts with AmeriCorps subgrantees to
emphasize the importance of timely reporting and to clarify when programs are out of compliance.
ONCS will also impose financial penalties for significant and frequent late reporting by withholding
funds until desired reports are received.

Current Status: Our review found that ONCS has revised the language in its contracts with
AmeriCorps subgrantees. Also, we determined that most subgrantees are now submitting their
semiannual FSRS on a timely basis.

Finding No. 4 and Recommendation. The pre-audit survey report concluded that ONCS did not
periodically reconcile FSRs to grant drawdown amounts. The auditor recommended that ONCS
develop a formal policy to provide for the reconciliation of cumulative claimed amounts reported on
FSRs to cumulative drawdown amounts at least annually. The policy should include procedures
requiring differences to be investigated and resolved, with explanations documented.

Proposed Management Decision: The Corporation and ONCS agreed with the recommendation and
ONCS developed a written policy that incorporates the auditor’s recommendation.

Current Status: Our review determined that ONCS has developed a written policy regarding the
reconciliation of FSRs amounts with grant drawdown amounts and has reconciled all of the older
grants. Work was in process to reconcile current grants at the time of our audit.

Finding No. 5 and Recommendation. The pre-audit survey report concluded that ONCS did not
adequately monitor subgrantees, performed only limited programmatic monitoring, and conducted
no fiscal monitoring of tested subgrantees. The auditor recommended that ONCS comply with its
established policies for monitoring subgrantees, continue to conduct a risk assessment of each
subgrantee, and conduct monitoring appropriate for each risk level. Also, the auditor recommended
that that key controls, such as validating costs and member testing, be performed for all
subgrantees. Such tests could be conducted on-site or off-site.

Proposed Management Decision: The Corporation and ONCS agreed with the recommendations.
ONCS has hired independent auditing firms to conduct independent audits, and ONCS agreed to
place greater emphasis on following its established policies for monitoring subgrantees.

Current Status: Our review found that ONCS is using independent auditing firms to perform
financial audits and the program administrators are performing monitoring site visits that followed




                                           40
                             Appendix A

Response of the New York State Office of National and Community Service
                 Appendix B

Response of the YMCA of Greater New York
                         Appendix C

Response of the Corporation for National and Community Service
